                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

                                                                                        11          Page 1 of 1



               A proactive review of proposals for plagiarism resulted in an allegation of plagiarism within a
                                                         9.
               proposal1submitted to NSF by a universit Upon further review, we found that the copied text was
               clearly cited, however it was neither in quotation marks nor otherwise distinguished fiom the rest of
               the text of the proposal. A letter addressing the improper citation practices was sent to the PI^ and
               CO-p1s4,and no further action will be taken.

                Accordingly, this case is closed.




I"
     NSF OIG Form 2 ( 1 1/02)
